Office of Material Loss Reviews
Report No. MLR-10-011


Material Loss Review of MetroPacific Bank,
Irvine, California




                                  January 2010
                                     Executive Summary

                                     Material Loss Review of MetroPacific Bank,
                                     Irvine, California
                                                                                     Report No. MLR-10-011
                                                                                              January 2010

Why We Did The Audit
On June 26, 2009, the California Department of Financial Institutions (CDFI) closed MetroPacific Bank,
(MetroPacific) Irvine, California, and named the FDIC as receiver. On July 6, 2009, the FDIC notified
the Office of Inspector General (OIG) that MetroPacific’s total assets at closing were $75.2 million and
the material loss to the Deposit Insurance Fund (DIF) was $29 million. As required by section 38(k) of
the Federal Deposit Insurance (FDI) Act, the OIG conducted a material loss review of the failure of
MetroPacific.

The audit objectives were to (1) determine the causes of MetroPacific’s failure and the resulting material
loss to the DIF and (2) evaluate the FDIC’s supervision of MetroPacific, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
MetroPacific was a state-chartered nonmember bank, established by the CDFI and insured by the FDIC
effective February 7, 2005. MetroPacific, which was headquartered in Irvine, California, was a full-
service community bank specializing in residential and commercial real estate loans (CRE), including
residential acquisition, development, and construction (ADC) loans. MetroPacific provided traditional
banking services within its marketplace and had no holding company, subsidiaries, or other affiliates.

Audit Results
Causes of Failure and Material Loss

MetroPacific, a de novo bank, failed primarily because it lacked stable and consistent management and
oversight as a result of significant turnover in key management positions. The bank’s Board of Directors
and management were particularly ineffective in implementing risk management practices pertaining to
adherence to the bank’s business plan and rapid growth and concentrations in CRE and ADC loans.
MetroPacific’s operations suffered from inadequate loan underwriting and credit administration, loan
policies, and allowance for loan and lease losses practices. The CRE and ADC concentrations and
inadequate risk management controls, coupled with weak economic and real estate market conditions,
(1) resulted in poor asset quality, a lack of earnings, and eroded capital and (2) left MetroPacific
unprepared and unable to effectively manage the risks associated with its loan portfolio. An inadequate
capital position finally led the CDFI to close the bank on June 26, 2009.


The FDIC’s Supervision of MetroPacific

The FDIC and CDFI provided oversight of MetroPacific by performing four on-site examinations and
two visitations from 2005 to 2009. Throughout that period, the examinations and visitations included
examiner concerns and recommendations related to the performance of MetroPacific’s management, the
bank’s loan portfolio, loan underwriting and credit administration deficiencies, and weak risk
management practices.

The FDIC pursued enforcement actions to correct problems as a result of the January 2006 and February
2008 examinations. However, timelier supervisory action could have been taken to address deviations
from the business plan. In addition, as the institution developed a higher-risk profile due to CRE and


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of MetroPacific Bank,
                                     Irvine, California
                                                                                     Report No. MLR-10-011
                                                                                              January 2010

ADC concentrations, supervisory action more directly addressing loan policy deficiencies would have
been prudent—particularly at the time of the February 2007 examination.

With respect to PCA, we concluded that the FDIC had properly implemented applicable PCA provisions
of section 38 based on the supervisory actions taken for MetroPacific. The effectiveness of PCA may
have been impacted, however, by the fact that MetroPacific paid rates on certificates of deposit that
exceeded the maximum permissible yield for Adequately Capitalized banks.

Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On December 22, 2009, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report. That response is provided in
its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of MetroPacific’s failure. In addition, DSC
stated that, as a result of significant operational deficiencies noted at the first full-scope examination,
MetroPacific agreed to a corrective program with an informal enforcement action in June 2006. Due to
significant turnover in key management positions, MetroPacific lacked management stability and was
unable to establish a sustainable core business model. DSC officials also stated that the February 2008
joint FDIC/CDFI examination identified a sharp increase in adversely classified assets, an inadequate
ALLL, loan underwriting and administration weaknesses, and a significant deviation from MetroPacific’s
business plan, resulting in a formal enforcement action by the FDIC and CDFI.

With regard to our assessment of the FDIC’s supervision, DSC stated that the supervisory program for de
novo institutions was recently extended so that these institutions receive a full-scope examination every
year for 7 years, as opposed to 3 years. Further, DSC stated that it is closely monitoring de novo business
plans against actual performance throughout the 7-year period. DSC’s August 2009 Financial Institution
Letter, entitled, Enhanced Supervisory Procedures for Newly Insured FDIC-Supervised Depository
Institutions, describes the program changes for de novo institutions and warns that changes to business
plans undertaken without required prior notice may subject institutions or their insiders to civil money
penalties.




                                 To view the full report, go to www.fdicig.gov
                                 Contents
                                                                          Page
Background                                                                  2

Causes of Failure and Material Loss                                         2
  Bank Management Turnover                                                  3
  Adherence to the Business Plan                                            4
  CRE and ADC Loan Concentrations                                           7
  Loan Policy                                                               9
  Loan Underwriting and Credit Administration Practices                    10
  Allowance for Loan and Lease Losses                                      11

The FDIC’s Supervision of MetroPacific                                     12
   Supervisory History                                                     12
   Supervisory Identification of, and Response to, MetroPacific’s Risks    16
   Implementation of PCA                                                   20

Corporation Comments                                                       21

Appendices
  1. Objectives, Scope, and Methodology                                    23
  2. Glossary of Terms                                                     25
  3. Acronyms                                                              26
  4. Corporation Comments                                                  27

Tables
   1. Financial Condition of MetroPacific                                   2
   2. MetroPacific’s Projected and Actual Levels for ADC Loans              5
   3. MetroPacific’s Business Plan Compared to Actual Actions               7
   4. MetroPacific’s Adverse Classifications and ALLL                      12
  5. MetroPacific’s Examination and Visitation History                     13
   6. MetroPacific’s Capital Ratios Relative to PCA Thresholds for         20
        Well-Capitalized Institutions

Figures
   1. MetroPacific’s CRE Loans to Total Capital Compared to Peers           8
   2. MetroPacific’s ADC Loans to Total Capital Compared to Peers           8
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, Virginia 22226                                            Office of Inspector General


DATE:                                           January 6, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection


                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of MetroPacific Bank, Irvine,
                                                California (Report No. MLR-10-011)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss 1 review of the failure of MetroPacific
Bank, Irvine, California. On June 26, 2009, the California Department of Financial
Institutions (CDFI) closed the bank and named the FDIC as receiver. On July 6, 2009,
the FDIC notified the OIG that MetroPacific’s total assets at closing were $75.2 million
and the material loss to the Deposit Insurance Fund (DIF) was $29 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision 2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.
This report presents the FDIC OIG’s analysis of MetroPacific’s failure and the FDIC’s
efforts to ensure MetroPacific’s management operated the bank in a safe and sound
manner. We are not making recommendations. Instead, as major causes, trends, and
common characteristics of financial institution failures are identified in our reviews, we
will communicate those to management for its consideration. As resources allow, we
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
may also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
program and make recommendations, as warranted. Appendix 1 contains details on our
objectives, scope, and methodology; Appendix 2 contains a glossary of terms; and
Appendix 3 contains a list of acronyms used in the report. Appendix 4 contains the
Corporation’s comments on this report.


Background
MetroPacific was a state-chartered nonmember bank, established by the CDFI and
insured by the FDIC effective February 7, 2005. MetroPacific, which was headquartered
in Irvine, California, was a full-service community bank specializing in residential and
commercial real estate (CRE) loans, including residential acquisition, development, and
construction (ADC) loans. MetroPacific provided traditional banking services within its
marketplace and had no holding company, subsidiaries, or other affiliates.

Table 1 provides a summary of selected financial information for MetroPacific as of
March 2009, and for the 4 preceding calendar years.

Table 1: Financial Condition of MetroPacific
    Financial Measure                                Mar-09           Dec-08         Dec-07          Dec-06     Dec-05
    Total Assets ($000s)                              $75,316         $77,393         $63,402         $47,816   $40,026
    Total Deposits ($000s)                            $70,078         $69,690         $49,031         $35,435   $27,469
    Total Loans ($000s)                               $56,552         $59,551         $53,499         $34,650   $20,993
    Net Income (Loss) ($000s)                         ($2,474)        ($5,744)        ($1,424)         ($974)   ($1,644)
Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for MetroPacific.



Causes of Failure and Material Loss

MetroPacific, a de novo bank, 3 failed primarily because it lacked stable and consistent
management and oversight as a result of significant turnover in key management
positions. The bank’s Board of Directors (Board) and management were particularly
ineffective in implementing risk management practices pertaining to adherence to the
bank’s business plan and rapid growth and concentrations in CRE and ADC loans.
MetroPacific’s operations suffered from inadequate loan underwriting and credit
administration, loan policies, and allowance for loan and lease losses (ALLL) practices.
The CRE and ADC concentrations and inadequate risk management controls, coupled
with weak economic and real estate market conditions, (1) resulted in poor asset quality,
a lack of earnings, and eroded capital and (2) left MetroPacific unprepared and unable to
effectively manage the risks associated with its loan portfolio. An inadequate capital
position finally led the CDFI to close the bank on June 26, 2009.


3
 De novo institutions are subject to additional supervisory oversight and regulatory controls, including the
development and maintenance of a current business plan and increased examination frequency.



                                                           2
Bank Management Turnover

MetroPacific experienced significant turnover rates in key management positions that
resulted in unstable and inconsistent management oversight, which contributed to the
bank’s overall poor financial condition. From 2005 through the bank’s failure in June
2009, the bank employed two Chief Executive Officers (CEOs), five Chief Credit
Officers (CCOs), and three Chief Financial Officers (CFOs). This instability and
inexperience in senior management and the bank’s lack of consistent supervision over
lending operations contributed to the development of the bank’s concentrations, an
excessive level of problem loans, and significant deficiencies in underwriting, loan
policies, and ALLL practices.

In its business plan, MetroPacific acknowledged the significance of, and responsibilities
associated with, these positions, which were critical to the safety and soundness and
profitability of the bank. Those responsibilities are outlined below.

      CEO—In conjunction with the Board, the CEO was to (1) provide leadership,
       direction and guidance of the bank’s activities to assure short and long-range
       profitability and planned growth of the bank in a safe and sound manner; and
       (2) keep the Board informed of financial results of operations, the status of loans,
       banking competition, and new business developments.

      CCO—The CCO was responsible for:

           o   the safety and soundness of the bank’s loan portfolio, management of the
               ALLL and insuring that all loan personnel were adhering to the general
               loan policy, rules, and regulations;

           o   executing and administering day-to-day lending functions necessary
               through supervision of lending staff;

           o   reviewing problematic loans with loan officers and taking necessary action
               to address those issues;

           o   maintaining credit files, loan quality assurance and loan reports; and

           o   ensuring that the bank’s loan mix complied with the lending activities
               outlined in the bank’s business plan.

      CFO—The CFO was responsible for the bank’s system of internal controls,
       including developing basic objectives, policies, and operating plans.

Further, according to the DSC Risk Management Manual of Examination Policies
(Examination Manual), the quality of management is probably the single most important
element in the successful operation of a bank. The Examination Manual also states that it
is important for bank management to be aware of and to discharge those responsibilities
in a manner that will ensure the stability and soundness of the institution. While it is not


                                             3
necessary for the Board to be actively involved in day-to-day operations of the bank, it
must provide clear guidance regarding acceptable risk exposure levels and ensure that
appropriate policies, procedures, and practices are established.

According to the FDIC’s February 2008 examination report, MetroPacific exhibited a
pattern of hiring or promoting individuals for the CEO and CCO positions who did not
have prior lending background and/or experience critical for those positions. During that
examination, examiners also concluded that the CCO was not considered qualified to
manage the bank’s loan portfolio and excessive level of problem assets. Examiners
concluded that bank management was unsatisfactory due to significant turnover, an
excessive level of problem assets and operating losses, inadequate risk management
practices, and the absence of a qualified CCO.

Concerns regarding MetroPacific’s inability to effectively manage the bank’s operations
were reported in the FDIC’s April 2008 problem bank memorandum, 4 which noted that:

        the bank’s weaknesses appeared to have resulted from poor oversight of the
         lending function, the lack of a CCO who had the necessary experience to manage
         the loan portfolio, and excessive turnover of the bank’s lending staff; and

        bank management was considered unsatisfactory due to significant senior
         management turnover, the excessive level of problem assets and operating losses,
         inadequate risk management practices, and the absence of a qualified CCO.

The March 2009 examination determined that continuing weaknesses in management
oversight were evident in all key areas, corrective action to address identified deficiencies
continued to be hindered by turnover in key management positions, and major provisions
of a June 2008 Cease & Desist Order (C&D) 5 had not been met. Examiners reported that
the lack of consistent supervision over the bank’s lending activities resulted in an
excessive level of problem loans and substantial deficiencies in loan underwriting, loan
policies, and ALLL practices. After about 4 years of operation, the bank’s condition,
including management, was deemed to be critically deficient.

Adherence to the Business Plan

Soon after MetroPacific opened for operations, the bank deviated from its business plan
by quickly exceeding financial projections in several areas and failing to follow certain
basic risk management controls. Such a deviation was contrary to the FDIC’s Final

4
  A problem bank memorandum documents the FDIC’s concerns with an institution and the corrective
action in place or to be implemented and is also used to effect interim rating changes on the FDIC’s
systems. According to Section 32 of the FDI Act, financial institutions that are deemed to be in a troubled
condition are required to notify the FDIC in writing at least 30 days prior to certain management changes,
including the addition or replacement of a Board member, or the employment or change in responsibilities
of anyone who was, would become, or who performed the duties of a senior executive officer.
5
  As a result of weaknesses identified at the February 2008 examination, the FDIC and CDFI issued a joint
C&D, which the Board stipulated to on June 17, 2008. Refer to the Supervisory History section of this
report for additional information on the C&D.


                                                     4
Order for Deposit Insurance approving MetroPacific’s deposit insurance. 6 In addition,
although MetroPacific’s business plan (1) indicated that the bank’s loan mix would
include a substantial segment of Small Business Administration (SBA) loans and
(2) stated that the bank would avoid concentrations of credit, both the lending practices
that the bank’s Board and management implemented and MetroPacific’s significant
management turnover in key positions ultimately resulted in (1) the bank’s inability to
adequately develop the SBA lending as planned and (2) concentrations in CRE and ADC
loans. More specifically:

        Although MetroPacific’s business plan stated that the bank’s proposed CCO and
         proposed President/CEO had considerable experience in establishing and
         administering SBA lending programs, problems associated with the bank’s ability
         to achieve its intended level of SBA loans were noted at the bank’s first full-scope
         examination conducted in January 2006.

        At the January 2006 examination, examiners (1) identified underperformance and
         the lack of expertise to effectively develop and manage the SBA loan portfolio
         and (2) noted that CRE and construction loans (i.e. ADC loans), which at that
         time represented 85 percent and 66 percent of Tier 1 Capital, respectively, were
         the largest categories of loans in the bank’s portfolio.

As shown in Table 2, MetroPacific’s higher-risk ADC lending was substantially greater
than the projected levels during the bank’s first 3 years of operation.

        Table 2: MetroPacific’s Projected and Actual Levels for ADC Loans
                                                         ADC Loans
           Period Ended                  Projected                         Actual
           December 2005                   12.3%                           32.5%
           December 2006                   9.3%                            34.7%
           December 2007                   8.4%                            38.1%
        Source: OIG analysis of MetroPacific’s business plan and UBPRs.

According to the FDIC Statement of Policy on Applications for Deposit Insurance, and in
compliance with sections 5 and 6 of the FDI Act, the FDIC must be assured that the
proposed institution does not present an undue risk to the DIF. The FDIC expects
proposed institutions to submit a business plan commensurate with the capabilities of the
bank’s management and the financial commitment of the incorporators. According to
guidance in effect at the time the FDIC approved MetroPacific’s application for deposit

6
  The Final Order for Deposit Insurance included 11 conditions that the FDIC imposed on MetroPacific,
and required the bank to comply with during its first 3 years of operation. The conditions were related, but
not limited to: (1) operating within the parameters of the bank’s business plan, with notification to the
FDIC of major deviations from the plan within 60 days; (2) maintaining Tier 1 Capital at not less than
8 percent and an adequate ALLL; and (3) obtaining annual audits of the bank’s financial statements by an
independent auditor for at least the first 3 years of operation. On February 3, 2005, MetroPacific informed
the FDIC that the bank had complied with or agreed to ensure future compliance with all 11 conditions
included in the Order.



                                                     5
insurance, any significant deviation from the business plan within the first 3 years of
operation—the de novo phase—was to be reported by the insured depository institution
to the primary federal regulator 60 days before consummation of the change. Further,
business plans that rely on high-risk lending or a special-purpose market, or that
otherwise diverge from conventional bank-related financial services, require specific
documentation as to the suitability of the proposed activities for an insured institution.

According to DSC officials, in both the January 2006 and February 2007 examination
reports, examiners concluded that (1) MetroPacific’s inability to develop the SBA loan
portfolio as the bank had intended and the resultant concentrations in CRE and ADC
loans were temporary situations, (2) the bank’s level of CRE and ADC loans was near
that of its peer group, and (3) the total number of loans included in the bank’s portfolio
was minimal. Therefore, according to DSC officials, examiners concluded that the bank
was operating within the parameters of its business plan. However, as indicated in
Table 2, although the number of loans in the bank’s loan portfolio may have been
considered to be minimal, MetroPacific significantly exceeded the bank’s projected level
of growth in high-risk ADC loans outlined in the bank’s business plan for each year of its
de novo period based on year-end financial data.

Examiners first concluded and reported that MetroPacific was not complying with the
bank’s business plan at the February 2008 examination. In addition to reporting
noncompliance at that examination, an April 18, 2008 FDIC problem bank memorandum
stated that MetroPacific’s:

      lack of adherence to the originally submitted business plan and provisions in the
       Final Order for Deposit Insurance was troubling,

      concentrations of speculative construction and land development loans were well
       beyond original projections, and

      concentrations comprised the majority of the $28 million in adversely classified
       assets.

As indicated in Table 3, MetroPacific’s noncompliance with its business plan was not
limited to the type and extent of loans included in its portfolio, but also involved other
controls included in the FDIC’s basis for its decision to approve deposit insurance for
MetroPacific.




                                              6
Table 3: MetroPacific’s Business Plan Compared to Actual Actions
          Bank Business Plan                                       Actual Bank Actions
 The Board would monitor adherence            The Board made no revisions to the original business plan
 to the business plan quarterly and           during its de novo period.
 revise the plan accordingly.
 Sound underwriting would be                  MetroPacific’s Board and management failed to ensure
 developed to keep the bank’s loan            that appropriate loan underwriting and administration risk
 loss exposure to a minimum.                  management controls were implemented and followed,
                                              failed to maintain an adequate ALLL, and allowed
                                              adversely classified assets totaling more than $28 million
                                              to exceed 282 percent of Tier 1 Capital prior to failure.
 The Board and executive                      MetroPacific concentrated its loan portfolio in high-risk
 management would pursue a carefully          CRE and ADC loans, significantly increasing risk to the
 managed growth strategy.                     bank, while experiencing significant turnover rates in key
                                              management positions that resulted in unstable and
                                              inconsistent management oversight.
 The intended geographical market             MetroPacific originated numerous out-of-area loans that
 was the bank’s surrounding                   totaled over $10 million as of May 2008.
 area/county.
 The bank would not pay fees to               MetroPacific purchased brokered deposits totaling
 brokers for any deposits.*                   $2.5 million during 2005 and more than $6.87 million
                                              during 2007.
Source: OIG’s analysis of MetroPacific’s business plan, ROEs, and examination workpapers.
* At the suggestion of an FDIC examiner, MetroPacific informed the FDIC in March 2007 of the Board’s
decision to use brokered deposits, in addition to other sources of wholesale funding. As noted by examiners
during the February 2008 examination, the bank’s use of brokered deposits was contrary to the business
plan, and the notification provided to the FDIC was not in compliance with the provisions of the FDIC’s Final
Order for Deposit Insurance, which required the bank to provide a 60-day notification before materially
deviating from the business plan.

CRE and ADC Loan Concentrations

MetroPacific’s business practices resulted in the bank concentrating its loan portfolio in
CRE and ADC loans. However, MetroPacific did not ensure that sound loan
underwriting and credit administration practices were developed, the loan policy was
adequate, and an adequate ALLL was maintained, all of which significantly increased the
bank’s risk profile.

At the January 2006 examination, examiners noted that CRE loans, at 97 percent of total
loans, represented MetroPacific’s largest category of loans. ADC loans represented
32.5 percent of total loans. The examiners noted in the February 2008 examination report
that MetroPacific’s business plan had projected that SBA loans would comprise
37 percent of total loans, versus the actual ratio of 16 percent at that time. According to
DSC officials, MetroPacific’s inability to develop the bank’s SBA loan portfolio resulted
in the bank continuing to generate CRE and ADC loans, ultimately developing a
concentration in those higher-risk loans.

As indicated in Figure 1, the bank’s concentration in CRE as a percent of Total Capital
grew at a rate which more than doubled that of its peers by 2009.



                                                     7
      Figure 1: MetroPacific’s CRE Loans to Total Capital Compared to Peers
                        800%

                        700%

                        600%
                        500%

                        400%

                        300%

                        200%

                        100%

                            0%
                                 Dec-05    Dec-06      Dec-07   Dec-08    Mar-09
             MetroPacific*        163%     189%        201%      446%      675%
             Peer*                74%      232%        199%       303%     296%
                                                    Year End Dates
     Source: UBPRs for MetroPacific.
     * Percentages for December 2007 through March 2009 do not include owner-occupied CRE.

Similarly, Figure 2 shows that the bank’s concentrations in ADC loans, as a percent of
the bank’s Total Capital, consistently exceeded that of its peer group from 2005 through
2009, almost 200 percent more than that of its peer group in 2009.

     Figure 2: MetroPacific’s ADC Loans to Total Capital Compared to Peers
                       350%

                       300%

                       250%

                       200%

                       150%

                       100%

                        50%

                            0%
                                 Dec-05   Dec-06      Dec-07    Dec-08    Mar-09
             MetroPacific         55%       97%        179%      226%      301%
             Peer                 27%       86%      131%     130%         119%
                                               Year End Dates

     Source: UBPRs for MetroPacific.




                                                8
Financial Institution Letter (FIL) 110-98, dated October 8, 1998, entitled, Internal and
Regulatory Guidelines for Managing Risks Associated with Acquisition, Development,
and Construction Lending, defines ADC lending as a highly specialized field with
inherent risks that must be managed and controlled to ensure that the activity remains
profitable. In addition, the FDIC issued FIL-104-2006, entitled, Concentrations in
Commercial Real Estate, Sound Risk Management Practices, dated December 12, 2006,
which states that such concentrations can pose substantial potential risks and inflict large
losses on institutions. Although the guidance does not specifically limit a bank’s CRE
lending, the guidance provides the following supervisory criteria for identifying financial
institutions that may have potentially significant CRE loan concentrations warranting
greater supervisory scrutiny.

      Total CRE loans that represent 300 percent or more of the institution’s Total
       Capital, and the outstanding balance of the institution’s CRE loan portfolio has
       increased by 50 percent or more during the prior 36 months.

      Total reported loans for construction, land development, and other land represent
       100 percent or more of the institution’s Total Capital.

As shown in Figures 1 and 2, MetroPacific’s levels of CRE and ADC concentrations
began to exceed the 2006 supervisory criteria in 2008 and 2007, respectively. These
concentration levels warranted strategies by MetroPacific to mitigate risk in the event of
adverse market conditions. As discussed in subsequent sections of this report, the Board
and management failed to effectively establish and implement such strategies.

Loan Policy

Throughout MetroPacific’s de novo period, the Board and bank management failed to
implement examiners’ recommendations regarding deficiencies identified in the bank’s
loan policy. Those deficiencies related to issues such as, but not limited to, adequate
controls to measure, monitor, and report CRE and ADC concentrations.

      September 2004 Application Process, August 2005 FDIC Visitation Report,
       and January 2006 Examination Report. Deficiencies in MetroPacific’s loan
       policy were noted during the 2004 application process, the 2005 visitation, and
       again in the 2006 examination report. The FDIC made the following specific
       recommendations to strengthen the bank’s proposed loan policy:

           o   establish specific portfolio mix targets related to concentrations of credit,

           o   define concentrations of credit and aggregate reporting of loans exceeding
               Part 365 loan-to-value limits, and

           o   expand the loan policies to include the requirement for concentration
               reporting and acceptable risk tolerance parameters.




                                             9
      February 2007 Examination Report. This examination report noted that bank
       management had implemented the prior examination recommendations for the
       bank to expand the concentration analysis and establish loan policy requirements
       for concentration reporting and acceptable risk tolerance parameters. However,
       examiners made additional recommendations for MetroPacific to:

           o   expand the construction loan report to track the number of sold and leased
               units,

           o   enhance the construction policy to include a marketing plan on speculative
               real estate loans,

           o   measure concentrations as a percentage of risk-based capital, and

           o   perform stress testing on variable rate commercial and real estate loans.

      February 2008 and March 2009 Examination Reports. Examiners continued
       to identify deficiencies in the bank’s loan policy related to reporting and
       monitoring of concentrations as described above. Further, the February 2008
       examination determined that, in some instances, management had failed to follow
       critical controls that were included in the loan policy, such as performing stress
       testing and/or sensitivity analysis on borrowers at loan origination. Accordingly,
       the FDIC addressed these deficiencies in a June 2008 C&D. However, at the
       following March 2009 examination, examiners also noted numerous deficiencies
       in the bank’s loan policy, including deficiencies related to inadequate guidelines
       in the CRE concentration loan portfolio mix and monitoring of out-of-territory
       loans.

DSC’s Examination Manual states that there are certain broad areas of consideration and
concern that should be addressed in the lending policies of all banks regardless of size or
location. According to the manual, a bank’s lending policy should include guidelines,
which, at a minimum, address the goals for portfolio mix and risk diversification and
cover the bank’s plan for monitoring and taking appropriate corrective action, if deemed
necessary, on any concentrations that may exist. However, from its inception in 2005
until its failure in 2009, MetroPacific’s Board and bank management failed to take timely
and effective action to address deficiencies in the bank’s loan policy related to CRE and
ADC concentrations.

Loan Underwriting and Credit Administration Practices

Weaknesses in MetroPacific’s loan underwriting and credit administration contributed to
the bank’s inability to effectively measure, monitor, and control the risks associated with
the bank’s loan portfolio. At the February 2008 examination, examiners noted
inadequate loan underwriting and credit administration practices related to the following:

      Failure to obtain current appraisals or perform adequate appraisal reviews, which
       significantly impacted the accuracy of the ALLL.


                                            10
        Overstated analyses of borrowers’ ability to repay.

        Weak underwriting and credit approval process, including inadequate descriptions
         of borrowers’ backgrounds, experiences, and credit histories.

        Failure to perform global financial analyses on borrowers and/or guarantors.

        Inappropriate use of interest reserves in which the bank shifted funds from a
         contingency reserve to replenish the interest reserve in an attempt to extend the
         carry period on construction projects.

        Ineffective loan grading and risk monitoring system that resulted in examiners
         downgrading over $14 million in loans to substandard or worse.

MetroPacific’s management did not take timely and effective action to correct its weak
loan underwriting and credit administration practices, as evidenced by the results of the
subsequent March 2009 examination. At that examination, DSC reviewed approximately
57 percent of MetroPacific’s loan portfolio and identified numerous repeat loan
underwriting and credit administration weaknesses, in addition to adverse classifications
totaling about $28 million. In addition, examiners concluded that there were substantial
deficiencies in key risk management controls including, but not limited to, credit
underwriting, appraisal review, loan impairment analysis, 7 and verification of a
borrower’s financial status that resulted in uncontrolled deterioration in the bank’s asset
quality.


Allowance for Loan and Lease Losses

The February 2008 examination concluded that MetroPacific’s Board and management
had failed to comply with the FDIC’s Final Order for Deposit Insurance, which required
the bank to maintain an adequately funded ALLL for the first 3 years of operation. In
addition, MetroPacific’s management did not consistently employ an ALLL methodology
in compliance with the guidance entitled, Interagency Policy Statement on Allowance for
Loan and Lease Losses, dated December 13, 2006. According to this policy, each
financial institution must analyze the collectibility of its loans and maintain an ALLL at
an appropriate level. An appropriate ALLL covers estimated loan losses on individually
evaluated loans that are determined to be impaired as well as estimated loan losses
inherent in the remainder of the loan and lease portfolio.




7
 According to the Interagency Policy Statement on the Allowance for Loan and Lease Losses, dated
December 13, 2006, under Financial Accounting Standards (FAS) 114, an individual loan is impaired
when, based on current information and events, it is probable that a creditor will be unable to collect all
amounts due according to the contractual terms of the loan agreement.



                                                      11
Examiners concluded at the February 2008 and March 2009 examinations that
MetroPacific’s ALLL was insufficient to protect against the level of potential loss in the
bank’s loan portfolio. In 2008, adverse classifications totaled more than $9 million,
requiring additional provisions for the ALLL. By the March 2009 examination, adverse
classifications had increased to $28 million, as shown in Table 4.

 Table 4: MetroPacific’s Adverse Classifications and ALLL
                                                                       ALLL to Total Loans
                                            ALLL Funding Level            and Leases
                                                          Examiner
  Examination       Adverse          MetroPacific’s     Recommended
     Dates       Classifications     Funded Level          Increase    MetroPacific    Peers
                                   (Dollars in Thousands)                 (Percentages)
  01/17/2006          $0                 $155              $0              1.20         1.20
  02/05/2007          $0                 $463              $0              1.34         1.23
  02/25/2008        $9,100               $650             $660             2.34         1.28
  03/09/2009        $28,000             $3,282           $3,200            7.36         1.57
 Source: ROEs and UBPRs for MetroPacific.

Examiners noted in the February 2008 examination report that the bank’s ALLL was
significantly underfunded, and the methodology was flawed due to weaknesses in loan
grading, inadequate support for estimated credit losses, and the absence of an
independent ALLL review. Consequently, by March 2009, examiners concluded that
deficiencies in MetroPacific’s ALLL resulted primarily from the bank’s failure to
identify problem assets in a timely manner and the subsequent misapplication of FAS 114
impairment principles. As a result, examiners recommended that MetroPacific increase
the ALLL by $3.2 million.


The FDIC’s Supervision of MetroPacific
The FDIC and CDFI provided oversight of MetroPacific by performing four on-site
examinations and two visitations from 2005 to 2009. Throughout that period, the
examinations and visitations included examiner concerns and recommendations related to
the performance of MetroPacific’s management, the bank’s loan portfolio, loan
underwriting and credit administration deficiencies, and weak risk management practices.
The FDIC pursued enforcement actions to correct problems as a result of the January
2006 and February 2008 examinations. However, timelier supervisory action could have
been taken to address deviations from the business plan. In addition, as the institution
developed a higher-risk profile due to CRE and ADC concentrations, supervisory action
more directly addressing loan policy deficiencies would have been prudent—particularly
at the time of the February 2007 examination.


Supervisory History

Table 5 summarizes key information pertaining to the on-site risk management that the
FDIC and CDFI conducted of MetroPacific, including the institution’s (1) supervisory


                                                 12
ratings, 8 examinations, and visitations and (2) supervisory and enforcement actions taken,
including the MOU issued in 2006 and the C&D issued in 2008.

     Table 5: MetroPacific’s Examination and Visitation History
                                        Supervisory
     Examination                          Ratings
      Start Date         Agency           (UFIRS)               Supervisory Action
     08/08/2005           FDIC         Not applicable                   None
     (Visitation)
     01/17/2006        FDIC/CDFI          223322/3                     MOU
                                                             (Effective June 9, 2006)*
     09/12/2006           FDIC         Not applicable            MOU continued
     (Visitation)
     02/05/2007        FDIC/CDFI          222322/2                MOU terminated
     02/25/2008        FDIC/CDFI          344422/4                     C&D
                                                             (Effective June 17, 2008)
                                                           Problem Bank Memorandum
     03/09/2009        FDIC/CDFI          555555/5                C&D continued
                                                           Problem Bank Memorandum
     Source: ROEs for MetroPacific.
    * In MetroPacific’s response to the January 2006 examination, the bank included a Bank Board
    Resolution (BBR), dated March 16, 2006. The Board adopted the BBR in response to examiners’
    concerns as a result of the January 2006 safety and soundness and information technology
    examinations, and the bank’s compliance visitation. Although MetroPacific adopted the BBR,
    the FDIC issued the MOU, effective June 9, 2006.

Examinations

January 2006. MetroPacific received a composite “3” rating at the bank’s first full-
scope examination in the January 2006 examination, which revealed that the overall
condition of the bank was considered less than satisfactory and the overall infrastructure
of the bank was less than sound due to the significant number of internal control
deficiencies. The examiners noted that the Board and bank management needed to
improve internal controls and bank oversight, and concluded that risk management
policies and procedures for asset and liability management and segregation of duties and
dual controls were inadequate. As a result of this examination, the FDIC issued an MOU
effective June 9, 2006. The MOU addressed operational and information technology
deficiencies and required that the bank:

        improve oversight by the Board and senior management and increase the Board’s
         participation in the affairs of the bank;


8
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


                                                   13
      retain management acceptable to the FDIC and the CDFI;

      adopt and implement a policy to provide adequate internal routine and control
       policies consistent with safe and sound banking practices;

      develop an internal audit program that establishes procedures to protect the
       integrity of the bank’s operational and accounting systems;

      revise, adopt, and implement a written liquidity and funds management policy;
       and

      implement a policy establishing a formal information technology audit program
       that provided comprehensive and ongoing audit coverage.

In addition, examiners concluded that as of December 31, 2005, MetroPacific’s earnings
were less than satisfactory and the bank had sustained a net loss of $1.4 million,
representing a loss that was $595,000 greater than projected in the bank’s application for
deposit insurance.

February 2007. Examiners determined that the bank’s overall condition had improved,
with adequate capital for the bank’s risk profile and anticipated growth and satisfactory
liquidity, and concluded that the bank’s composite rating and all of the component
ratings, except earnings, should be “2s”. However, examiners concluded that (1) the
bank’s earnings were less than satisfactory, with expected profitability delayed until mid-
year 2007, (approximately 1 year later than originally anticipated) and (2) MetroPacific
had substantially complied with the MOU provisions, and recommended that the FDIC
terminate the MOU.

February 2008. The bank’s overall condition had begun to show significant
deterioration, resulting in a further downgrade of the composite rating to a “4”, indicating
unsafe and unsound practices or conditions. In addition, several of the bank’s component
ratings were also downgraded to either a “3” or “4” at this examination. Examiners
concluded that after 3 years of operations, MetroPacific’s earnings were deficient, unable
to support the risk profile of the institution, and continued to erode the bank’s capital,
with an uncertain prospect for near-term profitability.

MetroPacific’s Board stipulated to a C&D on June 17, 2008 that included provisions to
address issues related to (1) improving Board and management oversight, (2) providing
effective loan policy over the bank’s lending function, (3) maintaining Tier 1 Leverage
Capital at 10 percent of total assets until sustained profitability was achieved,
(4) providing for an adequate ALLL, and (5) improving credit administration and
underwriting practices.

March 2009. Examiners concluded that the bank’s condition was “extremely critically
deficient,” citing unsafe and unsound practices and inadequate risk management practices
relative to the institution’s size, complexity, and risk profile and warranted the greatest



                                            14
level of supervisory concern. Accordingly, the bank’s composite and all of the
component ratings were downgraded to a “5”.

2008 and 2009 Problem Bank Designation. During the February 2008 and March
2009 examinations, the FDIC designated MetroPacific as a “problem bank.” That
designation was based on, but not limited to, the bank’s:

      deteriorated financial condition,
      inadequate management and substantial turnover in critical management
       positions,
      noncompliance with the business plan and the FDIC’s Final Order for Deposit
       Insurance,
      increased adversely classified assets,
      poor credit underwriting and administration,
      inadequate loan and loan concentration review functions,
      underfunded loan loss reserve,
      apparent violations of laws and regulations,
      inability to attain profitability, and
      inadequate capital levels.

Visitations and Offsite Reviews

The FDIC and CDFI also conducted four on-site and two offsite reviews that provided
continued monitoring of MetroPacific from the bank’s inception in 2005 through its
failure.

August 2005 Visitation. Given the bank’s de novo status, the FDIC and CDFI
conducted a limited scope visitation to verify compliance with the orders issued by the
CDFI and the FDIC related to the granting of the bank’s charter and deposit insurance.
Examiners concluded that (1) asset quality was satisfactory, (2) loan underwriting was
adequate, (3) the ALLL was adequately funded, and (4) management’s overall
methodology and risk management was appropriate. However, DSC noted in the
visitation report that the Board still had not addressed recommendations made during the
application process to improve the bank’s loan policy, such as establishing more specific
portfolio mix targets, defining concentrations of credit, and aggregate reporting of loans
exceeding loan-to-value limits.

September 2006 Visitation. This visitation was conducted to review the bank’s
progress in complying with the MOU issued in June 2006. The visitation report noted
that, overall, the bank had made significant improvements in identifying weaknesses and
complying with the provisions of the MOU, but bank management had not formalized its
practices into Board-approved policies and programs. In addition, as follow-up to the
MOU, the FDIC reviewed the quarterly progress reports that MetroPacific submitted to
the FDIC and CDFI. Those reports outlined the actions that MetroPacific had taken or
planned to take to address the provisions included in the MOU.




                                            15
December 2007 and March 2008 Offsite Reviews. These reviews noted that asset
quality had deteriorated, adverse classifications represented 68 percent of Tier 1 Capital,
the ALLL was underfunded with classifications centered in large dollar construction and
land loans, and significant underwriting and credit administration weaknesses existed.
The examiners also noted that the bank remained unprofitable after more than 3 years of
operation.

November 2008 Offsite Review. The FDIC initiated this offsite review that focused on
the bank’s asset quality. Examiners reported that asset quality continued to show signs of
deterioration, as evidenced by an increase in adversely classified loans to $16.9 million
from $8.8 million during the February 2008 examination, and a continued and significant
decrease in the bank’s earnings, with the return on assets decreasing from (.82) percent at
the February 2008 examination to (3.05) percent.

Supervisory Identification of, and Response to, MetroPacific’s Risks

Although MetroPacific had exceeded the parameters of its business plan in ADC
concentrations within 6 months of operation and lacked an adequate loan policy to
monitor these concentrations, examiners noted but did not take exception to the
noncompliance and concentrations until the 2008 examination. Early identification of
those risks, coupled with supervisory guidance and studies issued during MetroPacific’s
existence, should have prompted timelier supervisory action during the bank’s de novo
phase—particularly at the time of the February 2007 examination.

Growth and concentrations that exceeded and were inconsistent with the
business plan. MetroPacific quickly and consistently exceeded the growth parameters
for ADC loans included in the business plan and implemented a business strategy that
resulted in an ADC concentration that was not consistent with projected growth rates and
the bank’s stated intention to avoid concentrations of credit. As discussed earlier in this
report, MetroPacific’s concentration in ADC loans existed 6 months after the bank
opened in 2005 and was, at that time, over 20 percent higher than the bank’s projected
levels.

At the January 2006 examination, which was based on September 2005 financial data,
DSC officials stated that examiners determined that MetroPacific’s loan portfolio was
limited and had not yet resulted in a specific concentration or significant deviation from
the business plan. Further, CRE loans represented only 85 percent of Total Capital, far
below the concentration levels warranting greater supervisory scrutiny according to the
December 2006 guidance, entitled, Concentrations in Commercial Real Estate, Sound
Risk Management Practices. However, it was evident at the February 2007 examination
that a concentration in ADC loans was developing, with the bank’s ADC portfolio
(1) representing 97 percent of Total Capital (only 3 percentage points less than the 2006
supervisory criteria), and (2) exceeding the bank’s projections included in its business
plan. As such, the risks associated with the bank’s concentrations were also increasing in
2007. As indicated below, the number of loans in the bank’s portfolio had substantially




                                            16
increased by the February 2007 examination. More specifically:

          At the January 2006 examination, which was based on September 2005
           financial data, loans totaled $12.4 million.

          At the following February 2007 examination, which was based on December
           2006 financial data, loans totaled $34.7 million, representing an almost 200-
           percent increase in the number of loans.

Although the bank’s loans had substantially increased by the February 2007 examination,
examiners continued to conclude, as they had at the 2006 examination, that MetroPacific
was in compliance with the bank’s business plan and that there had not been a material or
significant deviation from the plan. DSC officials stated that the examiners reached that
conclusion because construction lending was an approved product line in the bank’s
original business plan approved by the FDIC.

The officials further explained that examiners:

      noted the difference between the planned and actual loan mix but did not consider
       it alarming, given that the percentage of ADC and CRE loans was nearly the same
       as the bank’s peer group and not considered high in relation to Tier 1 Capital, and

      focused on internal control issues and operations, which were assessed as a more
       immediate risk to the safety and soundness of the institution.

Examiners’ opinions regarding the bank’s compliance with and material deviation from
the business plan changed, however, at the February 2008 examination, when the bank’s
asset quality was deemed unsatisfactory due to an excessive volume of classified assets,
and examiners noted numerous credit underwriting and administration issues and a
flawed and underfunded ALLL. At that examination, examiners concluded that the bank
was not in compliance with its business plan relative to (1) employing operating officers
that were acceptable to the FDIC; (2) having CRE and ADC concentrations, including
significant ADC-concentrated loans and out-of-territory lending; and (3) maintaining an
adequate ALLL.

      Operating officers. Examiners concluded that the bank had been operating
       without a CCO, and the individuals serving as CFO and CEO did not have prior
       experience in those positions and/or had no prior lending experience. Examiners
       concluded that an experienced CCO was needed to address the bank’s excessive
       level of problem loans and the significant underwriting and credit administration
       weaknesses identified at the examination.

      CRE and ADC concentrations. The February 2008 examination report stated
       that the business plan projected the ratio of construction loans to total loans at
       8 percent at the end of the third year, versus the actual ratio of 41 percent, which
       examiners concluded was an excessive level. In contrast, SBA loans that had



                                            17
       been projected to comprise 37 percent of total loans represented only 16 percent
       of total loans. In addition, examiners concluded that the bank management’s
       (1) underwriting and credit administration expertise and risk management
       processes were not commensurate with the volume of construction and land
       development loans in the portfolio and (2) financial analysis skills needed to be
       strengthened to properly identify risk when underwriting construction and land
       development loans.

      Maintaining an ALLL. Examiners concluded that the bank’s inability to
       maintain an adequate ALLL was directly related to the significant deterioration in
       the bank’s asset quality, among other deficiencies.

It should be noted, however, that although examiners were required to address whether
financial institutions were materially deviating from their business plans during an
institution’s de novo period, prior to the 2009 examination for MetroPacific, DSC had not
issued guidance to examiners that specifically defined what would constitute a “material
deviation” from a business plan. Such guidance has subsequently been issued. In
addition, DSC has since issued guidance to clarify its supervision of de novo banks.
Specifically, on August 28, 2009, the FDIC issued FIL-50-2009, entitled Enhanced
Supervisory Procedures for Newly Insured FDIC-Supervised Depository Institutions,
which extended the de novo period to 7 years for examinations and capital and other
requirements. In addition, material changes in business plans for newly insured
institutions will require prior FDIC approval during the first 7 years of operation.
Further, the guidance states that:

      Going forward, deposit insurance orders for state nonmember institutions will
       require institutions to obtain prior approval from the FDIC on any proposed major
       change or deviation in their business plan.

      The FDIC will evaluate proposed material changes to business plans to determine
       if the institution has sufficient capital, management expertise, and internal
       controls in place to adequately manage the risks.

      In those instances when an institution has implemented a material change in its
       business plan without providing prior notice or obtaining the FDIC’s prior non-
       objection, the assessment of civil money penalties or other enforcement action
       against the institution or other appropriate parties should be considered.

Repeat deficiencies in the bank’s loan policy related to monitoring and reporting
high-risk concentrations. As early as 2004, examiners identified issues associated with
the bank’s inadequate loan policy related to the monitoring and reporting of
concentrations. However, bank management failed to take timely and effective actions to
address deficiencies in MetroPacific’s loan policy identified during the September 2004
application process, the August 2005 visitation, and the January 2006 examination report.
These issues, coupled with the rapid growth in high-risk ADC loans, should have resulted
in earlier and stronger supervisory action. Although examiners stated in the February
2007 examination report that bank management had taken action to improve


                                           18
MetroPacific’s loan policy, examiners also identified additional deficiencies and other
issues with the loan policy and continued to recommend that the bank take action to
address these issues, as discussed earlier in this report. Examiners continued to report
loan policy deficiencies during the February 2008 examination, noting that MetroPacific
failed to take appropriate action to address its deficient loan policy. While supervisory
action was taken to address the loan policy deficiencies in the June 2008 C&D, this
action proved to be in vain, as concerns with the bank’s loan policy were also noted at the
subsequent January 2009 examination.

Supervisory Guidance and Studies Issued

2004 De novo Bank Study. In 2004, the DSC Atlanta Regional Office (ARO) led an
interregional study of de novo financial institutions, and “young” banks (banks in the 4th
through 9th years of operation), in fulfillment of a DSC 2004 business line objective. The
purpose of the study was to review the timing of, and susceptibility to, problems of de
novo and young banks and to determine important factors related to the application
process for deposit insurance, compliance with business plans, and high-risk factors for
those institutions, including CRE concentrations. MetroPacific exhibited risk factors
reported in the 2004 study including, but not limited to (1) weak oversight by the Board,
(2) inexperienced management and high turnover in key management positions,
(3) departure from the business plan by exceeding projected asset growth, and (4) rapid
asset growth in CRE and ADC loans.

2003 CRE Review. The DSC ARO also conducted a CRE Review Project in 2003 that
confirmed the need for bank management to develop and implement lending programs
that incorporate certain key components. The CRE review concluded that a sound CRE
lending program begins with Board and senior management direction and oversight; and
that developing and adhering to a comprehensive loan policy that establishes clear and
measurable standards for production, underwriting, diversification, risk review, reporting,
and monitoring were critical. As a result, CRE Review results were made available to all
DSC regional offices through Regional Directors Memorandum entitled, Commercial
Real Estate Review Package (CRRP), dated December 22, 2003, which stated that while
the use of the CRRP was not mandatory, DSC Regional Directors might use the CRRP at
their discretion to help assess CRE lending in markets where economic fundamentals or
bank lending trends suggest significant increases in risk. The guidance also stated that,
generally, banks with CRE loans to Tier 1 Capital ratios of 300 percent or more might be
included in a CRRP visitation program.

DSC’s Examination Manual. The Examination Manual states that the examiner’s
evaluation of a bank’s credit administration and loan policy and the quality of the loan
portfolio are among the most important aspects of the examination process.

MetroPacific’s noncompliance with the business plan and developing CRE and ADC
concentrations may not have been evident at the August 2005 visitation and the January
2006 examination. However, by the time the February 2007 examination was conducted,
DSC should have identified the bank’s noncompliance with the business plan and the
risks associated with the high growth concentrations, and taken action to address those


                                            19
risks. We recognize that the C&D issued in June 2008 addressed deficiencies at the
bank; however, due to the significant concentrations and lack of appropriate controls,
MetroPacific’s loan-related losses had already resulted in significant deterioration in the
bank’s asset quality, depleted earnings, and eroded capital.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured nonmember banks that are not adequately capitalized. Based on
supervisory actions taken with respect to MetroPacific, the FDIC properly implemented
applicable PCA provisions of the FDI Act, section 38. The effectiveness of PCA may
have been impacted, however, by the fact that MetroPacific paid rates on certificates of
deposit that exceeded the maximum permissible yield for Adequately Capitalized banks.

Table 6 illustrates the decline in MetroPacific’s capital categories during the bank’s
history.

   Table 6: MetroPacific’s Capital Ratios Relative to PCA Thresholds for
            Well Capitalized Institutions
                       Tier 1       Tier 1 Risk-        Total Risk-
       Period
                      Leverage         Based              Based          Capital Category
       Ending
                       Capital        Capital            Capital
       PCA           5% or                                10% or
                                 6% or more
    Threshold        more                                  more
   MetroPacific’s Capital Ratios
      Dec-05         58.45         81.63                  82.62          Well Capitalized
      Dec-06         25.79         29.54                  30.67          Well Capitalized
     Dec-07          18.89         20.30                  21.56          Well Capitalized
      Jun-08          NA            NA                     NA         Adequately Capitalized*
      Dec-08          4.28          5.59                   6.87         Under Capitalized
      Mar-09          3.51          4.08                   5.36         Under Capitalized
  Source: UBPR and ROEs for MetroPacific.
  * When MetroPacific entered into the June 2008 C&D, the bank’s regulatory capital category was
  re-classified from Well Capitalized to Adequately Capitalized for PCA purposes as required by
  FDIC Rules and Regulation, Part 325, Subpart B.

As indicated above, MetroPacific’s capital levels as of December 31, 2008 had
dramatically declined from the bank’s December 2007 capital levels, and continued
falling through March 2009. In addition, during the March 2009 examination, examiners
reported that although MetroPacific had not originated or renewed any brokered deposits
since entering into the C&D, bank management had not adequately monitored deposit




                                                   20
pricing restrictions to ensure compliance with regulatory restrictions. 9 As a result,
MetroPacific continued to solicit and retain deposits utilizing rates that significantly
exceeded local market averages in apparent violation of Part 337.6 of the FDIC Rules and
Regulations. Specifically, examiners’ review of rates on $20 million in time deposits that
were originated or renewed after the C&D was issued indicated that the rates that
MetroPacific paid for essentially all of those time deposits significantly exceeded the
average prevailing rates offered within the bank’s normal market area. Examiners
concluded that, on average, the rates exceeded local market averages by 148 basis points,
with variances as high as 241 basis points on some accounts.

On April 21, 2009, the CDFI issued a capital demand letter to MetroPacific’s Board
giving the bank until June 15, 2009 to raise approximately $5.7 million in capital. The
FDIC issued a PCA Notification Letter to MetroPacific dated May 6, 2009, notifying the
bank that it was deemed to be Significantly Undercapitalized. In compliance with
section 38, the notification required the bank to submit a capital restoration plan to the
FDIC by June 15, 2009. On June 19, 2009, the FDIC rejected MetroPacific’s capital plan
dated June 13, 2009, citing the bank’s plan to increase capital and become Adequately
Capitalized as unrealistic. MetroPacific did not obtain the required capital, and the CDFI
closed the bank on June 26, 2009.


Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On December 22, 2009, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of MetroPacific’s failure. In
addition, DSC stated that, as a result of significant operational deficiencies noted at the
first full-scope examination, MetroPacific agreed to a corrective program with an
informal enforcement action in June 2006. Due to significant turnover in key
management positions, MetroPacific lacked management stability and was unable to
establish a sustainable core business model. DSC officials also stated that the February
2008 joint FDIC/CDFI examination identified a sharp increase in adversely classified
assets, an inadequate ALLL, loan underwriting and administration weaknesses, and a
significant deviation from MetroPacific’s business plan, resulting in a formal
enforcement action by the FDIC and CDFI.



9
 In addition to prohibiting the origination or renewal of any brokered deposit without a waiver, Part 337.6
of the FDIC Rules and Regulations restricts a bank that is not Well Capitalized from paying an effective
yield on any deposit which exceeds by more than 75 basis points the effective yield paid on deposits of
comparable size and maturity in the institution's normal market area.



                                                    21
With regard to our assessment of the FDIC’s supervision, DSC stated that the supervisory
program for de novo institutions was recently extended so that these institutions receive a
full-scope examination every year for 7 years, as opposed to 3 years. Further, DSC stated
that it is closely monitoring de novo business plans against actual performance
throughout the 7-year period. DSC’s Enhanced Supervisory Procedures for Newly
Insured FDIC-Supervised Depository Institutions describes the program changes for de
novo institutions and warns that changes to business plans undertaken without required
prior notice may subject institutions or their insiders to civil money penalties.




                                            22
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from August 3, 2009 to November 30, 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of MetroPacific’s operations from
February 7, 2005 until its failure on June 26, 2009. Our review also entailed an
evaluation of the regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed ROEs and visitation reports prepared by the FDIC and the CDFI
         examiners from 2005 to 2009.

        Reviewed the following:

              Documentation for offsite monitoring activities conducted by the FDIC.

              Available work papers for FDIC examinations.

              Correspondence maintained at DSC’s San Francisco Regional Office and the
               Orange County Field Office.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.



                                             23
                                                                             Appendix 1

                     Objectives, Scope, and Methodology


              Audit Reports prepared by the bank’s external auditor, Vavrinek, Trine, Day
               & Co., LLP, CPAs, Laguna Hills, California.

              Pertinent DSC policies and procedures.

        Interviewed the following FDIC officials:

              DSC management in Washington, D.C., and San Francisco.

              FDIC examiners from the DSC Orange County Field Office who participated
               in MetroPacific examinations and visitations.

        Researched various banking laws and regulations.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand MetroPacific’s management controls
pertaining to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                             24
                                                                                    Appendix 2

                                 Glossary of Terms


Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the extent
                    not provided for in a separate liability account, the ALLL should also be
                    sufficient to absorb estimated loan losses associated with off-balance sheet
                    loan instruments such as standby letters of credit.
Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice
                    or a violation of laws and regulations. A C&D may be terminated when
                    the bank’s condition has significantly improved and the action is no longer
                    needed or the bank has materially complied with its terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Memorandum of       An informal corrective administrative action for institutions considered to
Understanding       be of supervisory concern but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, this
                    action is to be considered for all institutions rated a composite “3”.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325 of the
(PCA)               FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                    325.101, et. seq., implements section 38, Prompt Corrective Action, of the
                    FDI Act, 12 United States Code section 1831o, by establishing a
                    framework for taking prompt supervisory actions against insured
                    nonmember banks that are less than adequately capitalized. The following
                    terms are used to describe capital adequacy: (1) Well Capitalized,
                    (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly
                    Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action
                    or compliance with the PCA statute with respect to an institution that falls
                    within any of the three categories of undercapitalized institutions.
Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)       The report is produced by the Federal Financial Institutions Examination
                    Council for the use of banking supervisors, bankers, and the general public
                    and is produced quarterly from Consolidated Reports of Condition and
                    Income data submitted by banks.



                                               25
                                                                  Appendix 3
                          Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
ARO      Atlanta Regional Office
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity
         to Market Risk
CCO      Chief Credit Officer
CDFI     California Department of Financial Institutions
CEO      Chief Executive Officer
CFO      Chief Financial Officer
CRE      Commercial Real Estate
CRRP     Commercial Real Estate Review Package
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FAS      Financial Accounting Standards
FDI      Federal Deposit Insurance
FDIC     Federal Deposit Insurance Corporation
FIL      Financial Institution Letter
MOU      Memorandum of Understanding
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
SBA      Small Business Administration
UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                 26
                                                                                                              Appendix 4
                               Corporation Comments



FDI6
Federal Deposit Insurance Corporation
550 17h Street NW, Washington, D.C. 2042g.999                      Di..ision of Supeision and Consumer Protection

                                                                   December 22, 2009


MEMORANDUM TO:                      Stephen Beard
                                   Assistant Inspector General for Material Loss ~eviews

FROM:                               Sandra L. Thompson
                                    Director

SUBJECT:                            Draft Audit Report Entitled, Material Loss Review of MetroPacific
                                    Bank, Irvine, California (Assignment No, 2009-052)


 Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
 Insurance Corporation's Offce of Inspector General (OIG) conducted a material loss review of
 MetroPacific Bank (MPB) which failed on June 26, 2009. This memorandum is the response of
 the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft Report (Report)
 received on December 14,2009.

 The Report concludes that MPB's failure was due to the Board and management's inability to
 effectively manage regular operations due to excessive management turnover, and rapid growth
 in commercial real estate and acquisition, development and construction lending. MPB
 employed a total of two Chief Executive Offcers, three Chief Financial Offcers, and five Chief
 Credit Offcers during its four year history, causing significant inconsistencies in loan
 underwriting, credit administration, and allowance for loan and lease loss (ALLL) practices.
 Due to expected initial losses and escalating loan losses in 2008 and 2009, the bank never
 reached profitability, resulting in declining capital reserves and eventually in MPB's failure,

 From the time ofMPB's opening in 2005 until it was closed, the FDIC and California
 Department of Financial Institutions (CDFI) performed annual examinations and two interim on-
 site visitations. As a result of significant operational deficiencies noted at the first full scope
 examination, MPB agreed to a corrective program with an informal enforcement action in June
 2006. Due to significant turnover in key management positions, MPB lacked management
 stability and was unable to establish a sustainable core business modeL. The February 2008 Joint
 l'DIC/CDFI examination identified a sharp increase in adversely classified assets, an inadequate
 ALLL, loan underwriting and administration weaknesses, and a significant deviation from
 MPB's business plan, resulting in a formal enforcement action by the FDIC and CDFI.

 In recognition that elevated supervisory attention is necessary for de novo institutions, DSC
 recently extended its supervisory program so that these institutions receive a full scope
 examination every year for seven years, as opposed to three years, De novo business plans are
 being closely monitored against actual performance throughout the seven year period. The
 Financial Institution Letter issued in August 2009, describes the program changes for de novo
 institutions and warns that changes to business plans undertaken without required prior notice
 may subject institutions or their insiders to civil money penalties.

  Thank you for the opportunity to review and comment on the Report,




                                                     27
